  SAFETY, COST, AND OPERATIONAL
          METRICS OF THE
FEDERAL AVIATION ADMINISTRATION’S
   VISUAL FLIGHT RULE TOWERS
       Federal Aviation Administration
        Report Number: AV-2003-057
       Date Issued: September 4, 2003
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Safety, Cost, and Operational                 Date:    September 4, 2003
           Metrics of the Federal Aviation Administration’s
           Visual Flight Rule Towers
           Federal Aviation Administration
           AV-2003-057

  From:    Kenneth M. Mead                                         Reply to
                                                                   Attn. of:   JA-10
           Inspector General

    To:    Federal Aviation Administrator

           This is our report on safety, cost, and operational metrics of the Federal Aviation
           Administration’s (FAA) visual flight rule (VFR) towers. Our office has been
           conducting periodic reviews and audits of various aspects of FAA’s Contract
           Tower Program since 1998. Exhibit A provides a synopsis of our reports and the
           Internet addresses where they can be downloaded.

           The objective of this review was to provide an independent analysis of comparable
           data concerning VFR towers in FAA’s Contract Tower Program and VFR towers
           staffed with FAA controllers. We conducted this analysis as part of our ongoing
           oversight responsibility of the Contract Tower Program and at the request of the
           President of the National Air Traffic Controllers Association (NATCA), who
           asked in a July 30, 2003 letter that we review cost-related issues associated with
           the Contract Tower Program. Because safety is the primary mission of all air
           traffic control facilities, we expanded the scope of the analysis to include metrics
           on safety and operations of contract towers as well. We also analyzed comparable
           data for 71 FAA-staffed VFR towers.


           VFR Towers
           VFR towers are air traffic control towers that are not equipped with radar, and air
           traffic controllers at those towers do not use radar to separate aircraft. Instead,
           controllers at VFR towers are responsible for sequencing and separating aircraft
           using other methods such as visually identifying an aircraft’s location and
           communicating with pilots to determine their position.
                                                                                                        2


There are some VFR towers (both in the Contract Tower Program and among the
71 FAA-staffed VFR towers) that are equipped with a monitoring device known as
DBRITE (Digital Bright Radar Indicator Tower Equipment).1 DBRITE is a
display system used by controllers to assist them in identifying and monitoring
aircraft−it is not a radar system and is not used in the radar control of air traffic.

While many VFR towers handle only general aviation, some VFR towers are busy,
complex facilities. For example, some VFR towers in the Contract Tower
Program and some of the 71 FAA-staffed VFR towers have regularly scheduled
commercial service, conduct 24-hour operations, control military traffic, have
runways equipped with instrument landing systems, and are located in busy urban
areas.


Program Background
In 1982, FAA began a pilot program to contract for air traffic control services for
five Level I towers2 that were closed as a result of the Professional Air Traffic
Controllers Organization strike in 1981. The program grew to 27 towers by 1993.
In 1994, Congress provided funding for a multi-year program to convert additional
FAA-operated Level I towers to contract operations. The Program was further
expanded by including towers at airports that never had an FAA-operated tower.

In fiscal year (FY) 1999, Congress provided funding for a cost-sharing program.
This program allows airports that would not normally qualify to be in FAA’s
Contract Tower Program to enter the Program by paying for a portion of the costs
to operate their tower. As of August 2003, there were 219 VFR towers in the
Contract Tower Program−195 towers that are fully funded by FAA (full-funded
towers) and 24 towers where FAA and the local community share the costs of
operating the tower (cost-sharing towers). (See Exhibit B.)

FAA also operates 71 VFR towers that are staffed with controllers employed by
the FAA instead of a contractor. (See Exhibit C.) These towers were originally
classified as Level II and III facilities, and were not included in the conversion of
Level I towers to the Contract Tower Program.

In 1998, FAA reclassified all its FAA-staffed air traffic control (ATC) facilities
into ATC grades 3 through 12.3 Unlike FAA’s old classification system, which
was based primarily on the number of aircraft operations a facility handled, the
new classification system is based on numerous factors. These factors include the

1
    Some VFR towers are equipped with a similar device known as TARDIS (Terminal Automated Radar
    Display Information System).
2
    Prior to 1998, FAA categorized all towers as Levels I through V, with Level I towers having the lowest
    number of operations.
3
    Contract towers are not classified under FAA ATC grade levels.
                                                                                                        3


complexity of operations, the types of users, the configuration of an airport’s
runways, and the number of aircraft operations handled. The higher the ATC
grade, the more difficult the operations and the higher the controllers’ average
salaries.

The FAA-staffed VFR towers are classified as ATC grade levels 5 through 9. An
ATC grade level 5, for example, might handle 20 to 40 aircraft per hour whereas
an ATC grade level 9 might handle 80 to 100 aircraft per hour. In comparison,
over half of the towers in the Contract Tower Program (reporting air traffic
density) handle less than 20 aircraft per hour. However, there are 74 contract
towers that handle between 20 and 40 aircraft per hour as well. Those 74 towers
are, in our opinion, comparable in terms of operations to the 30 FAA-staffed VFR
towers in ATC grade levels 5 and 6.


                ATC Grades of 71 FAA-STAFFED VFR TOWERS
                       ATC GRADE LEVEL                     NUMBER OF
                                                           TOWERS
                                5                              7
                                6                             23
                                7                             32
                                8                              5
                                9                              4
                                TOTAL                         71


RESULTS IN BRIEF
Overall, the metrics illustrate several important factors in terms of safety and costs
of FAA’s contract VFR towers and the 71 FAA-staffed VFR towers. (Further
details regarding metrics on safety and costs, as well as additional metrics
concerning operations and staffing are discussed under the “observations” section
of this report.)


Safety
ü In terms of safety of operations as measured by operational errors/deviations
      (OEs/ODs),4 both the contract VFR towers and the FAA-staffed VFR towers
      fell well below FAA’s FY 2002 overall average of 6.70 operational errors for
      every 1 million operations handled.


4
    An operational error occurs when an air traffic controller does not maintain minimum FAA separation
    requirements between aircraft. An operational deviation occurs when a controller allows an aircraft to
    enter airspace managed by another controller without prior coordination and approval.
                                                                                                    4


      − In FY 2002, contract towers had 8 operational errors/deviations, which was
        a rate of 0.49 incidents per million operations handled.
      − The 71 FAA-staffed VFR towers had 38 operational errors/deviations,
        which was a rate of 2.70 incidents per million operations handled.
      − The FAA-staffed VFR towers in ATC grade levels 5 and 6 (those that are
        most comparable to contract towers) had 9 operational errors/deviations,
        which was a rate of 2.03 incidents per million operations handled.
ü While the operational error rates at contract towers and the FAA-staffed VFR
      towers are significantly better than FAA’s agencywide average, it is important
      to note that neither the FAA contract towers nor the FAA-staffed VFR towers
      have a system for automatically reporting operational errors.5 Although FAA
      actively encourages self-reporting and has taken adverse action against
      personnel who intentionally cover up operational errors, FAA cannot be sure
      that all operational errors are reported at either FAA-staffed VFR towers or at
      contract towers.
ü It is also important to note that the severity of most of the errors that occurred
      could not be determined using FAA’s rating system for operational errors.
      This is because the severity system can only be used for airborne errors that
      were being tracked with radar.
ü The largest percentages of operational errors/deviations did not occur at the
      busiest facilities. For example,
      − In FY 2002, nearly 80 percent of the operational errors/deviations at the
        FAA-staffed VFR towers occurred at facilities that average less than
        60 aircraft operations per hour.
      − At the contract towers, 75 percent of the operational errors/deviations in
        FY 2002 occurred at facilities that average less than 40 aircraft operations
        per hour. Exhibit E lists the specific facilities that had an operational error
        or deviation in FY 2002 and FY 2001.

Costs
ü In FY 2002, the average cost to operate the 189 full-funded FAA contract VFR
      towers was $365,608, while the average cost to operate the 71 FAA-staffed
      VFR towers was $1,741,935.
ü To determine the average cost differences between comparable towers in both
      groups, we compared the FY 2002 costs of 12 contract towers with 12 FAA-


5
    In contrast, en route facilities, which handle the en route portion of a flight, have a system for
    automatically reporting operational errors.
                                                                                5


     staffed VFR towers in FAA ATC grade levels 5 and 6 that had similar levels of
     average hourly aircraft operations (air traffic density).
     − Our analysis showed that the 12 contract towers, on average, cost about
       $917,000 less to operate annually than the 12 FAA-staffed VFR towers,
       even though they had comparable levels of aircraft operations.
ü The difference in costs is primarily due to two reasons:
     − FAA-staffed towers are historically staffed with more controllers than
       contract towers, and
     − FAA-employed controllers generally have higher salaries than contract
       tower controllers.
ü In 1999, FAA did the same analysis using FY 1998 cost data and the same
     towers we selected. At that time, the 12 contract towers, on average, cost
     about $787,000 less to operate than the 12 FAA-staffed VFR towers.
ü A comparison of FAA’s analysis of FY 1998 data and our analysis of FY 2002
     data shows that the spread between the two groups has increased by about
     $130,000 or 16 percent. That increase is primarily a result of increases in
     salaries for FAA controllers due to a new pay system implemented in FY 1998,
     combined with the fact that the FAA-staffed VFR towers are generally staffed
     with more controllers.
ü In terms of total costs for contract towers and FAA-staffed VFR towers during
     the period FY 2000 through FY 2002:
     − The costs to operate the full-funded contract towers increased 24.3 percent
       (from $55.6 million to $69.1 million), while the number of towers increased
       by 16 percent (from 163 to 189).6
     − For the same period, the costs to operate the 71 FAA-staffed VFR towers
       increased 16.7 percent (from $106.0 million to $123.7 million), while the
       number of towers remained constant.7
ü Our analysis of the cost difference between contract towers and comparable
     FAA-staffed VFR towers indicates that if the 189 full-funded contract towers
     had been staffed with FAA controllers in FY 2002, the agency’s annual
     operating costs could have been about $173 million higher ($917,000 x
     189 towers).




6
    Source: FAA Contract Tower Program Branch.
7
    Source: FAA Air Traffic Resource Management.
                                                                                  6


OBSERVATIONS

Operations
In FY 2002, contract towers handled approximately 16.4 million operations, while
the FAA-staffed VFR towers handled approximately 14.1 million operations.
However, unlike most contract towers which are relatively similar (primarily low
activity airports), the 71 FAA-staffed VFR towers are not a homogeneous group.
The 71 FAA-staffed VFR towers have significant differences in the volume of air
traffic they control, the number and types of users they serve, and the complexity
of the airspace they manage.

For example, the average number of aircraft operations handled each hour (or
average hourly air traffic density) at the 71 FAA-staffed VFR towers ranges from
about 20 aircraft per hour to over 100 aircraft per hour. The Van Nuys, California,
VFR tower (which is an ATC grade level 9) is the eighth busiest air traffic control
tower in the country. In fact, as illustrated in Exhibit C, 11 of the 71 FAA-staffed
VFR towers are among FAA’s 50 busiest air traffic control towers in the United
States in terms of airport operations.

In contrast, of the VFR towers in the Contract Tower Program that reported air
traffic density, 102 (more than half) handle less than 20 aircraft operations per
hour (on average). (See Exhibit D.)

Although there are significant differences between many of the contract towers
and the FAA-staffed VFR towers, there are towers in both groups with comparable
operations. For example, 30 of the FAA-staffed VFR towers (primarily ATC
grade 5 and 6 facilities) handle between 20 and 40 aircraft per hour. That
compares to 74 contract towers that handle between 20 and 40 aircraft per hour as
well. (See Exhibit D.)


Safety
In terms of safety of operations as measured by operational errors/deviations, both
the contract towers and the FAA-staffed VFR towers fell well below FAA’s
FY 2002 overall average of 6.70 operational errors for every 1 million operations
handled.

In FY 2002, contract towers had 8 operational errors/deviations, which was a rate
of 0.49 incidents per million operations handled. The 71 FAA-staffed VFR towers
had 38 operational errors/deviations, which was a rate of 2.70 incidents per million
operations handled. The FAA-staffed VFR towers in ATC grade levels 5 and 6
(those towers that are most comparable to contract towers) had 9 operational
                                                                                                    7


errors/deviations, which was a rate of 2.03 incidents per million operations
handled.

While the operational error rates at contract towers and the FAA-staffed VFR
towers are significantly better than FAA’s agencywide average, it is important to
note that neither the FAA contract towers nor the FAA-staffed VFR towers have a
system for automatically reporting operational errors.8 Although FAA actively
encourages self-reporting and has taken adverse action against personnel who
intentionally cover up operational errors, FAA cannot be sure that all operational
errors are reported at either FAA-staffed VFR towers or contract towers.

It is also important to note that the severity of most of the errors that occurred
could not be determined using FAA’s rating system for operational errors because
the severity system can only be used for airborne errors that were being tracked by
radar.

Additionally, the largest percentages of operational errors/deviations did not occur
at the busiest facilities. For example, in FY 2002, nearly 80 percent of the
operational errors/deviations at the FAA-staffed VFR towers occurred at facilities
that averaged less than 60 aircraft operations per hour.

At the contract towers, 75 percent of the operational errors/deviations in FY 2002
occurred at facilities that averaged less than 40 aircraft operations per hour.
Exhibit E lists the specific facilities that had an operational error or deviation in
FY 2002 and FY 2001.


Staffing
In general, contract towers are staffed with fewer controllers than FAA-staffed
VFR towers. For example, our analysis of June 2003 staffing data found that
196 FAA contract towers, on average, are staffed with six controllers. In
comparison, the 30 FAA-staffed VFR towers that are most comparable to contract
towers (those in ATC grades 5 and 6) are staffed, on average, with 10 and 12
controllers, respectively.

One reason for the difference in staffing levels that we observed during our
FY 2000 audit was that, at FAA contract towers we visited, tower managers
worked some operational shifts as controllers. In contrast, at the FAA-staffed
VFR towers we visited, most tower managers did not work operational shifts
controlling traffic.


8
    In contrast, en route facilities, which handle the en route portion of a flight, have a system for
    automatically reporting operational errors.
                                                                                  8


Another reason for the staffing differences, according to officials from NATCA, is
that many of the 71 FAA-staffed VFR towers have historically been used as a
training ground for new FAA controllers. According to officials from the
American Association of Airport Executives, most controllers at contract towers
are retired military controllers or former FAA controllers.

Our previous audit work also identified several staffing issues at FAA contract
towers that have subsequently been corrected.

− In our FY 1998 audit, we found that not all contract towers were staffed
   according to contract staffing plans. We recommended that FAA direct
   contractors to staff contract towers in accordance with contract requirements
   and establish procedures to periodically review staffing levels at contract
   towers.
− FAA agreed with our recommendations and took appropriate actions including
   requiring that staffing at contract towers be a “special emphasis” item during
   tower evaluations conducted by FAA’s Evaluations Branch.                FAA’s
   Evaluations Branch conducts facility reviews of all FAA air traffic facilities
   including contract towers and the 71 FAA-staffed VFR towers.
− We also recommended that FAA recover payments of $2.4 million made to
   one contractor who did not comply with staffing plans at 35 locations. The
   amount was never subsequently recovered based on opinions by FAA
   procurement officials and FAA Chief Counsel that the old contracts were
   written as fixed price contracts and therefore not subject to recoveries based on
   staffing differences.
− FAA corrected the contract problem in FY 2000 when it issued new contracts.
   Those contracts contain specific provisions requiring contractors to report
   monthly the number of controllers at each location and the hours they worked.
   The contracts also contain provisions that allow FAA to make downward or
   upward price adjustments based on actual staffing levels provided by the
   contractors.
− During our FY 2000 audit, we also tested payroll records for a 2-month period
   at 37 contract towers and found that contractors (in total) provided the required
   number of employees and hours within 2 percent of the contractual
   requirements.
                                                                                                        9


Costs
In FY 2002, the cost to operate the 71 FAA-operated VFR towers was
$123.7 million9 compared to $73.5 million10 to operate the 219 contract towers.11
The difference in costs is primarily due to differences in controller staffing levels
between the FAA-staffed towers and the contract towers, and the higher salaries
paid to the FAA-employed controllers.

We also compared the total and average costs of full-funded contract towers and
FAA-staffed VFR towers for the period FY 2000 through FY 2002. (See
Exhibit F.) Our analysis showed:

− Between the beginning of FY 2000 and the end of FY 2002, the number of
  full-funded contract towers increased from 163 to 189 (16 percent) while the
  total costs for those towers increased from $55.6 million to $69.1 million
  (24.3 percent). The cost increase was primarily due to the increase in the
  number of full-funded towers and increases in contract costs. Other reasons
  for the cost increase include a 3-percent wage escalation clause included in the
  contract, wage determination increases for contract controllers issued yearly by
  the Department of Labor, and increased liability insurance costs since
  September 11, 2001.
− Between the beginning of FY 2000 and the end of FY 2002, the number of
  FAA-staffed VFR towers remained constant at 71, while the total costs for
  those towers increased from $106.0 million to $123.7 million (16.7 percent).
  The cost increase was primarily the result of increases in personnel
  compensation and benefits.
In FY 2002, the average cost to operate a full-funded contract VFR tower was
$365,608, while the average cost to operate an FAA-staffed VFR tower was
$1,741,935. Those figures represent average costs for all towers in both groups.
To determine the average cost differences between comparable contract towers
and FAA-staffed VFR towers, we compared the FY 2002 costs of 12 contract
towers with 12 FAA-staffed VFR towers in ATC grade levels 5 and 6 that had
similar averages for hourly aircraft operations (air traffic density). (See
Exhibit G.)

Our analysis showed that the 12 contract towers, on average, cost about
$917,000 less to operate annually than the 12 FAA-staffed VFR towers, even
though they had comparable levels of aircraft operations. To put that cost

9
   Includes $123.5 million for personnel compensation and benefits and $0.2 million for other costs.
10
   Includes $70 million obligated for ATC services, $3.3 million obligated for insurance, and $0.2 million
   obligated for travel and contract support.
11
   Costs are for operating the towers and do not include capital equipment costs, which are paid by FAA
   and/or the airport.
                                                                               10


difference in perspective, if the 189 full-funded contract towers had been staffed
with FAA controllers in FY 2002, the agency’s annual operating costs could have
been about $173 million higher.

In 1999, FAA did the same analysis using FY 1998 cost data and the same towers
we selected. At that time, the 12 contract towers, on average, cost about $787,000
less to operate than the 12 FAA-staffed VFR towers. A comparison of FAA’s
analysis of the FY 1998 data and our analysis of the FY 2002 data shows that the
spread between the two groups has increased by about $130,000 or about
16 percent. That increase is primarily a result of higher salaries for FAA
controllers due to a new pay system for controllers implemented in FY 1998,
combined with the fact that FAA-staffed towers are generally staffed with more
controllers than contract towers.

If you have any questions or need further information, please contact me at
(202) 366-1959 or David A. Dobbs, Assistant Inspector General for Aviation
Audits, at (202) 366-0500.

                                        #
                                                                                11


EXHIBIT A. PRIOR OIG REPORTS
• In 1998, we conducted a comprehensive review of the Contract Tower
  Program and found little difference in the quality or safety of services provided
  at Level I towers whether they were operated by FAA or by contractors.
  Specifically, we found that contract controllers met qualification requirements
  and received required training, users were satisfied with the services they
  received at contract locations, and the number and types of incidents (such as
  operational errors and deviations) at FAA and contract towers were
  comparable.

   We also found that contract towers reduced operating costs. However, we
   found that not all contract towers were staffed according to contract staffing
   plans. (In our FY 2000 audit, we found those staffing issues had been
   resolved.) We recommended that FAA direct contractors to staff contract
   towers in accordance with contract requirements and establish procedures to
   periodically review staffing levels at contract towers. Those measures were
   necessary because contract towers were staffed with fewer controllers than
   FAA-staffed VFR towers and staffing levels were based on contractor-
   prepared staffing plans. http://www.oig.dot.gov/item_details.php?item=305

• In FY 1999, Congress requested that we conduct a review of an FAA study of
  expanding the Contract Tower Program to 71 FAA-staffed VFR towers. In
  that review, we found that contract towers continued to provide services that
  are comparable to the quality and safety of FAA-operated towers, and that
  users remained supportive of the Program. We also found that previously
  reported staffing issues had been addressed. We tested payroll records for a
  2-month period at 37 contract towers and found that contractors (in total)
  provided the required number of employees and hours within 2 percent of the
  contractual requirements. In addition, we found that FAA’s new contract
  solicitation contained specific provisions requiring contractors to report and
  certify monthly the number of controllers at each location and the hours they
  worked.

   However, we found that FAA’s study of expanding the Program did not fully
   consider several key factors that needed to be further analyzed and reported to
   Congress.    Those factors included devising a better methodology for
   determining which FAA-staffed VFR towers could be contracted out, revising
   estimated savings by location, and evaluating the benefits that FAA controllers
   from locations converted to contract operations could provide in meeting
   FAA’s projected staffing needs. FAA has not completed actions to address our
   recommendations. http://www.oig.dot.gov/show_pdf.php?id=95



Exhibit A. Prior OIG Reports
                                                                               12


EXHIBIT B. FAA CONTRACT VISUAL FLIGHT RULE
TOWERS (AS OF AUGUST 2003)

Full-Funded Towers
AK    Kodiak                          FL     Melbourne
AK    Bethel                          FL     Opa Locka
AK    Kenai Municipal (Mun.)          FL     Panama City/Bay Co.
AL    Brookley (Mobile)               FL     Pompano Beach
AL    Dothan                          FL     St. Augustine
AL    Tuscaloosa Mun.                 FL     Albert Whitted (St. Petersburg)
AR    Fayetteville                    FL     Stuart/Witham
AR    Texarkana Mun./Webb Field       FL     Titusville/Cocoa
AR    Northwest Arkansas Regional     FL     Cecil Field
AZ    Chandler                        GA     SW Georgia/Albany-Dougherty
AZ    Flagstaff Pulliam               GA     Athens Mun.
AZ    Glendale                        GA     Fulton County
AZ    Goodyear (Phoenix)              GA     Gwinnett County
AZ    Mesa/Williams Gateway           GA     McCollum
AZ    Ryan (Tucson)                   GA     Valdosta Regional
CA    Chico                           Guam   Agana
CA    Fullerton                       HI     Kalaeloa
CA    Hawthorne                       HI     Kona/Keahole
CA    Mather (Sacramento)             HI     Lihue
CA    Modesto                         HI     Molokai
CA    Oxnard                          IA     Dubuque
CA    Palmdale                        ID     Idaho Falls
CA    Riverside                       ID     Lewiston-Nez Perce Co.
CA    Redding Mun.                    ID     Pocatello Mun.
CA    Sacramento Exec.                ID     Friedman Memorial (Hailey)
CA    San Luis Obispo                 IL     St. Louis Regional
CA    Brown Field (San Diego)         IL     Bloomington/Normal
CA    Santa Maria                     IL     Decatur
CA    Salinas Mun.                    IL     So. Illinois/Carbondale
CA    San Carlos                      IL     Williamson County (Marion)
CA    Vandenburg                      IL     Waukegan Regional
CA    Victorville                     IN     Gary Regional
CA    Whiteman (Los Angeles)          KS     Forbes Field (Topeka)
CA    William J. Fox (Lancaster)      KS     Hutchinson Mun.
CO    Eagle County                    KS     Johnson Co. Exec.
CO    Grand Junction                  KS     Salina Mun.
CT    Bridgeport                      KS     New Century Air Center (Olathe)
CT    Danbury                         KS     Philip Billard Mun. (Topeka)
CT    New London (Groton)             KY     Owensboro/Daviess Co.
CT    Brainard (Hartford)             KY     Barkley Regional (Paducah)
CT    Tweed-New Haven                 LA     Alexandria
CT    Waterbury/Oxford                LA     Acadiana Regional
FL    Naples                          LA     Chennault
FL    Boca Raton                      LA     Houma
FL    Craig (Jacksonville)            LA     Shreveport Downtown
FL    Key West                        MA     Barnes Mun.
FL    Page Field                      MA     Beverly
FL    Gainesville                     MA     New Bedford
FL    Hollywood                       MA     Hyannis
FL    Kissimmee                       MA     Lawrence
FL    Lakeland Mun.                   MA     Martha's Vineyard




Exhibit B. FAA Contract Visual Flight Rule Tow ers (as of August
2003)
                                                                                  13



Full-Funded Towers (continued)

MA    Worcester                          OR       McNary Field (Salem)
MA    Norwood                            OR       Troutdale (Portland)
MD    Washington Co. (Hagerstown)        PA       Capital City (Harrisburg)
MD    Martin State (Baltimore)           PA       Lancaster
MD    Salisbury-Wicomico                 PR       Isla Grande
MI    Battle Creek                       SC       Greenville Downtown
MI    Detroit City                       SD       Rapid City Regional
MI    Jackson                            TN       Smyrna
MI    Sawyer                             TN       Millington
MN    Anoka (Minneapolis)                TX       Brownsville Int'l.
MO    Columbia                           TX       Easterwood
MO    Joplin Regional                    TX       Waco
MO    Rosecrans Memorial (St. Joseph)    TX       Grand Prairie
MP    Saipan International (Int’l.)      TX       Rio Grande Valley (Harlingen)
MS    Greenville Mun.                    TX       Laredo Int'l.
MS    Hawkins Field (Jackson)            TX       McAllen
MS    Meridian/Key Field                 TX       Redbird
MS    Tupelo Regional                    TX       Sugar Land
MT    Gallatin Field (Bozeman)           TX       San Angelo
MT    Kalispell                          TX       Stinson Mun.
MT    Missoula                           TX       McKinney Mun.
NC    New Bern                           TX       Tyler
NC    Smith Reynolds (Winston-Salem)     UT       Ogden-Hinckley
ND    Minot                              V.I.     Henry E. Rohlsen (St. Croix)
NH    Boire Field (Nashua)               VA       Charlottesville-Albemarle
NJ    Trenton                            VA       Lynchburg
NM    Farmington Mun.                    WA       Bellingham Int'l
NM    Lea County/Hobbs                   WA       Olympia
NM    Sante Fe Co. Mun.                  WA       Renton
NV    Henderson (Las Vegas)              WA       Felts Field (Spokane)
NY    Niagara Falls                      WA       Tacoma Narrows
NY    Tompkins County                    WA       Yakima
NY    Stewart                            WI       Appleton
OH    Burke Lakefront (Cleveland)        WI       Central Wisconsin
OH    Cuyahoga County (Cleveland)        WI       Kenosha Mun.
OH    Lunken Mun. (Cincinnati)           WI       Rock County (Janesville)
OH    Bolton Field (Columbus)            WI       Lacrosse
OH    Ohio State University              WI       Timmerman (Milwaukee)
OK    Ardmore Mun.                       WI       Wittman Regional (Oshkosh)
OK    Lawton Mun.                        WI       Waukesha County Airport
OK    University of Oklahoma/            WV       Wheeling Ohio Co.
       Westheimer                        WV       Greenbrier Valley
OK    Wiley Post                         WV       Morgantown
OK    Enid Woodring Mun.                 WV       Parkersburg
OR    Klamath Falls                      WY       Cheyenne
OR    Medford                            WY       Jackson Hole
OR    Pendleton
OR    Redmond                           Subtotal 195




Exhibit B. FAA Contract Visual Flight Rule Tow ers (as of August
2003)
                                                                                14


Cost-Sharing Towers

 AK    King Salmon                          NC    Concord
 AR    Springdale                           NE    Central Neb. (Grand Island)
 AZ    Laughlin/Bullhead City               NH    Lebanon Mun.
 CA    South Lake Tahoe                     NV    Elko
 GA    Macon                                NY    Oneida County
 IN    Columbus Mun.                        OK    Stillwater
 IN    Bloomington                          PA    Williamsport/Lycoming Co.
 IN    Muncie/Delaware County               PA    Latrobe.
 KS    Garden City                          SC    Grand Strand/Myrtle Beach
 KS    Manhattan                            TN    McKeller-Sipes (Jackson)
 MO    Jefferson City                       WA    Walla Walla Regional
 NC    Hickory Regional
 NC    Kinston                              Subtotal 24


Source: FAA Contract Tower Program Office




Exhibit B. FAA Contract Visual Flight Rule Tow ers (as of August
2003)
                                                                                     15


EXHIBIT C. FAA-STAFFED 71 VISUAL FLIGHT RULE
TOWERS (AS OF MAY 2003)
ATC Level 5 VFR Towers                      ATC Level 7 VFR Towers
AK         Juneau International             AK         Anchorage/Merrill Field
AZ         Grand Canyon Municipal           AZ         Mesa/Falcon Field
CA         Napa County                      AZ         Prescott/EA Love Field
CA         Santa Rosa Sonoma                AZ         Scottsdale
IN         Lafayette/Perdue University      CA         Camarillo
MI         Traverse City                    CA         Carlsbad/McClellan
VA         Manassas Regional/Davis Field    CA         Chino
Subtotal 7                                  CA         La Verne/Bracket Field
                                            CA         Palo Alto
ATC Level 6 VFR Towers                      CA         San Diego/Gillespie Field
CA         Concord/Buchanan Field           CA         San Diego/Montgomery
CA         El Monte                         CA         San Jose/Reid-Hillview
CA         Hayward Air Terminal             CA         Santa Monica Municipal
CA         Livermore Municipal              CA         Torrance/Zamperini Field
CA         Sacramento International         FL         Fort Lauderdale Executive
CO         Denver/Jeffco                    FL         Miami/Kendall-Tamiami
DE         Wilmington/New Castle            FL         Orlando Executive
FL         Ft. Pierce                       GA         Atlanta/Dekalb-Peachtree
FL         Vero Beach                       IL         Chicago/Du Page
IL         Cahokia/St. Louis                IL         Chicago/Palwaukee Municipal
IL         Chicago/Aurora Municipal         MA         Bedford/Hanscom Field
KY         Louisville Bowman                MA         Nantucket Memorial
LA         New Orleans/Lakefront            MN         Minneapolis/Crystal
MI         Ann Arbor Municipal              MN         Minneapolis/Flying Cloud
MI         Detroit Willow Run               ND         Grand Forks International
MN         St. Paul Downtown                NJ         Caldwell/Essex County
MO         Spirit of St. Louis              NJ         Morristown Municipal
NY         Poughkeepsie/Dutchess            NV         North Las Vegas
OR         Portland-Hillsboro               NY         Farmingdale/Republic
PA         Northeast Philadelphia           TX         Dallas Addison
PA         Pittsburgh/Allegheny County      TX         Tomaball D.W. Hooks
TX         Fort Worth/Alliance              VA         Newport News
WA         Everett Paine Field              Subtotal 32
Subtotal 23
ATC Level 8 VFR Towers                      ATC Level 9 VFR Towers
AZ         Phoenix-Deer Valley Municipal    CA         Long Beach/Daugherty
FL         Orlando/Sanford                  CA         Van Nuys
MI         Pontiac/Oakland International    CO         Denver/Centennial
OK         Tulsa/Riverside                  TX         Fort Worth Meacham
WA         Seattle/Boeing Field             Subtotal 4
Subtotal 5
Towers bolded and italicized were among FAA's 50 busiest towers (in terms of
airport operations) as of March 2003.


Exhibit C. FAA-Staffed 71 Visual Flight Rule Tow ers (as of May 2003)
                                                                                                            16


                         EXHIBIT D. AVERAGE NUMBER OF HOURLY AIR
                         TRAFFIC OPERATIONS HANDLED (AIR TRAFFIC
                         DENSITY) FOR FISCAL YEAR 2002



                                        FAA-Staffed VFR Towers            FAA Contract Towers
                    120          102
                                 55%

                    100
                                                74
Num ber of Towers




                                               40%
                     80


                     60
                                          30          31
                     40                  42%         44%
                                                            11
                                                           6%         4                  5                   1
                     20
                                                                     6%                 7%
                                                                                                            1%
                             0                                              0                  0                   0
                     0
                             1-19.99     20-39.99     40-59.99       60-79.99           80-99.99               100+
                                                           Density Ranges
                                                                        Source: FAA Office of Aviation Policty and Plans
                                                                      Data unavailable for 32 FAA Contract Tow ers (14.61%)




                         Exhibit D. Average Number of Hourly Air Traffic Operations Handled
                         (Air Traffic Density) for Fiscal Year 2002
                                                                    17


EXHIBIT E. OPERATIONAL ERRORS/DEVIATIONS BY
LOCATION FOR FISCAL YEARS 2002 AND 2001
FAA Contract Towers FY 2002
                                                        OE +
Identifier Facility                        OE   OD
                                                        OD
  ADQ      Kodiak, AK                      1              1
  ATW      Appleton, WI                    1              1
  BZN      Gallatin Field, MT              1              1
  CHD      Chandler, AZ                    1              1
  CRG      Jacksonville/Craig, FL                1        1
  LIH      Lihue, HI                       1              1
  PWA      Oklahoma City/Wiley, OK               1        1
  SSF      Stinson, TX                     1              1
           Total                                          8
FAA-Staffed VFR Towers FY 2002 (numbers in parentheses are ATC grades)
  FCM      Flying Cloud, MN (7)            4     1        5
  CNO      Chino, CA (7)                   2     1        3
  PDK      Peachtree, GA (7)               2     1        3
  ADS      Dallas Addison, TX (7)                2        2
  AGC      Allegheny County, PA (6)        2              2
  BFI      Seattle/Boeing, WA (8)                2        2
  DVT      Deer Valley, AZ (8)                   2        2
  FXE      Ft. Lauderdale Exec., FL (7)    1     1        2
   JNU     Juneau, AK (5)                  1     1        2
   LGB     Long Beach, CA (9)              2              2
   MRI     Merrill Field, AK (7)           2              2
   APC     Napa County, CA (5)                   1        1
   BED     Bedford/Hanscom Field, MA (7)         1        1
  BJC      Jeffco Airport, CO (6)          1              1
  CDW      Essex County, NJ (7)            1              1
  FRG      Farmingdale, NY (7)             1              1
  GFK      Grand Forks, ND (7)                   1        1
  LOU      Louisville, KY (6)              1              1
  MYF      Montgomery, CA (7)              1              1
  VNY      Van Nuys, CA (9)                1              1
  VRB      Vero Beach, FL (6)              1              1
  YIP      Willow Run, MI (6)              1              1
           Total                                          38


Exhibit E. Operational Errors/Deviations by Location for Fiscal Years
2002 and 2001
                                                                   18


FAA Contract Towers FY 2001
Identifier Facility                       OE OD   OE + OD
  AHN      Athens/Ben Epps, GA            1         1
  BET      Bethel, AK                     1         1
  BKL      Burke Lakefront, OH            1         1
  BRO      Brownsville, TX                1         1
  CHD      Chandler, AZ                   1         1
  RDM      Redmond, OR                    1         1
  SFF      Spokane, WA                    1         1
  SIG      San Juan/Dominicci, PR         1         1
  TTD      Troutdale, OR                      1     1
  UGN      Waukegan, IL                   2         2
           Total                                    11
FAA-Staffed VFR Towers
  BED      Bedford/Hanscom, MA (7)            1     1
  BJC      Jeffco, CO (6)                     1     1
  CDW      Essex County, NJ (7)           2          2
  DVT      Deer Valley, AZ (8)            1         1
  FFZ      Mesa/Falcon, AZ (7)            1         1
  FPR      Fort Pierce, FL (6)            1         1
  FRG      Farmingdale, NY (7)            1         1
  FXE      Ft. Lauderdale Exec., FL (7)   3         3
  GFK      Grand Forks, ND (7)                1      1
  JNU      Juneau, AK (5)                 2         2
  MRI      Anchorage, AK (7)              2          2
  MYF      Montgomery, CA (7)             1         1
  ORL      Orlando Exec., FL (7)          2         2
  PAE      Everett, WA (6)                    2     2
  POC      Brackett Field, CA (7)             1     1
  PRC      Prescott, AZ (7)               1         1
  PWK      Palwaukee, IL (7)              1          1
  SMO      Santa Monica, CA (7)           1   1     2
  VGT      Las Vegas, NV (7)              1   1     2
  VRB      Vero Beach, FL (6)             1          1
   YIP     Willow Run, MI (6)                 2     2
           Total                                    31




Exhibit E. Operational Errors/Deviations by Location for Fiscal Years
2002 and 2001
                                                                          19


     EXHIBIT F. COST COMPARISON OF FAA-STAFFED VFR
     TOWERS AND CONTRACT TOWERS: FY 2000-FY 2002



      Category           FAA-Staffed    Full-Funded   Cost Share   Total Contract
                         VFR Towers      Contract      Contract    Tower Program
                                          Towers       Towers
FY 2000
 Number of Towers at         71             163           0             163
 Start of FY 00
 Number of Towers at         71             187           10            197
 End of FY 00
 Total Costs             $105,964,255   $55,600,000   $1,350,000     $56,950,000
 Average Cost Per          $1,492,454      $297,326     $135,000       $289,086
 Tower

FY 2001
 Number of Towers at         71             187           10            197
 Start of FY 01
 Number of Towers at         71             187           18            205
 End of FY 01
 Total Costs             $115,906,752   $62,900,000   $3,400,000     $66,300,000
 Average Cost Per          $1,632,489      $336,364     $188,889       $323,415
 Tower

FY 2002
 Number of Towers at         71             187           18            205
 Start of FY 02
 Number of Towers at         71             189           30            219
 End of FY 02
 Total Costs             $123,677,352   $69,100,000   $4,400,000     $73,500,000
 Average Cost Per          $1,741,935      $365,608    $146,667        $335,616
 Tower
Increase in Number of
Towers (Beg. FY 2000        0.0%          16.0%          N/A           34.4%
– End of FY 2002)
Percentage Increase in      16.7%         24.3%        225.9%          29.1%
Total Costs
Percentage Increase in      16.7%         23.0%         8.6%           16.1%
Average Cost Per
Tower
     SOURCE: FAA




     Exhibit F. Cost Comparison of FAA-Staffed VFR Tow ers and Contract
     Tow ers: FY 2000-FY 2002
                                                                        20


EXHIBIT G. FY 2002 COST COMPARISONS OF
SELECTED COMPARABLE FAA-STAFFED VFR TOWERS
AND CONTRACT VFR TOWERS

FAA VFR Towers
      Tower          ATC Level            Density          Cost
Concord, CA               6                29.92       $1,496,279.94
Everett, WA               6                52.84       $1,244,865.62
Fort Pierce, FL           6                41.14       $1,673,103.01
Hillsboro, OR             6                51.69       $1,130,699.24
Juneau, AK                5                34.63       $1,242,796.64
Lafayette, IN             5                37.19       $1,259,123.27
Livermore, CA             6                49.95       $1,222,477.28
Manassas, VA              5                31.39       $1,399,207.35
Napa, CA                  5                34.38       $1,175,907.22
Santa Rosa, CA            5                30.98       $1,297,417.15
Traverse City, MI         5                33.05       $1,205,987.34
Vero Beach, FL            6                50.05       $1,780,143.64
Total                                                 $16,128,007.70

                       Average Cost                    $1,344,000.64
                       Density Range                    29.92 – 52.84

Fully Funded Contract Towers
          Tower                           Density         Cost
Anoka, MN                                   35.74       $417,036.00
Carbondale, IL                              40.59       $338,280.00
Chandler, AZ                                48.88       $513,620.00
Gateway, AZ                                 41.32       $486,707.00
Gwinnett, GA                                33.85       $362,100.00
Hollywood, FL                               33.81       $441,096.00
Lakeland, FL                                30.76       $445,278.00
Norman, OK                                  32.02       $366,215.26
Pompano Beach, FL                           44.61       $367,440.00
Ryan Field, AZ                              35.41       $449,755.00
San Carlos, CA                              39.20       $413,180.00
Stewart, NY                                 28.22       $521,340.00
Total                                                  $5,122,047.26

                        Average Cost                     $426,837.27
                        Density Range                   28.22 – 48.88

Average Cost of Selected FAA-staffed VFR Towers       $1,344,000.64
Average Cost of Selected Full-Funded Contract Tower     $426,837.27
Cost Difference                                        $917,163.37



Exhibit G. FY 2002 Cost Comparisons of Selected Comparable FAA-
Staffed VFR Tow ers and Contract VFR Tow ers
                                                                                21


EXHIBIT H. SCOPE AND METHODOLOGY
The objective of this review was to provide an independent analysis of comparable
data concerning VFR towers in FAA’s Contract Tower Program and VFR towers
staffed with FAA controllers. We conducted this analysis as part of our ongoing
oversight responsibility of the Contract Tower Program and at the request of the
President of the National Air Traffic Controllers Association (NATCA) who, in a
July 30, 2003 letter, asked that we review cost-related issues associated with the
Contract Tower Program.

Because safety is the primary mission of all air traffic control facilities, we
expanded the scope of the analysis to include metrics on safety and operational
issues of contract towers as well. We also analyzed comparable data for 71 FAA-
staffed VFR towers.

We conducted the review in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States. We are making no
recommendations in this report, and there are no actions or management
comments required from FAA management.

Our analysis was conducted between August 8, 2003, and September 1, 2003. The
focus of our review was analysis of data related to costs, operations, safety, and
staffing for FAA’s contract towers and FAA-staffed VFR towers. Information
used on the number of contract towers and their annual obligations was obtained
from FAA’s Contract Tower Program Branch.

To evaluate the safety of operations between contract towers and FAA-staffed
VFR towers, we reviewed FAA-provided data on the number of operational errors
and deviations that occurred at each facility in FY 2001 and FY 2002. We then
calculated the rate of operational errors/deviations per million operations at each
location, using data provided by FAA.

To determine average staffing levels, we reviewed staffing requirements included
in the contracts for all contract towers and obtained on-board staffing levels for
FAA-staffed VFR towers from FAA’s Office of Air Traffic Resource
Management. We also reviewed data regarding operations and average air traffic
density from data base information compiled by FAA’s Office of Aviation Policy
and Plans.

To compare costs of comparable FAA-operated and contract towers in FY 2002,
we selected 12 FAA-staffed VFR towers and 12 contract towers with comparable
average air traffic density. We then obtained costs for each contract tower from




Exhibit H. Scope and Methodology
                                                                                22


the contracts and the costs for each of the 12 FAA-staffed towers from FAA’s
Office of Air Traffic Resource Management.12

We then computed an average cost for each group and calculated the difference
between the two groups. We compared our cost difference to a cost estimate made
by FAA in 1999 using the same towers and computed the difference between our
analysis and FAA’s analysis. Finally, we met with representatives from the
National Air Traffic Controllers Association and the American Association of
Airport Executives to obtain their opinions and insights about both contract towers
and FAA-staffed VFR towers.




12
     We did not include program costs or overhead costs for either group.


Exhibit H. Scope and Methodology
